U.S. Department of                                   The Inspector General          Office of Inspector General
Transportation                                                                      Washington, DC 20590
Office of the Secretary
of Transportation

July 25, 2013



The Honorable John D. Rockefeller, IV                 The Honorable Bill Shuster
Chairman                                              Chairman
Committee on Commerce, Science, and                   Committee on Transportation and
Transportation                                        Infrastructure
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

The Honorable Patty Murray                            The Honorable Tom Latham
Chairman                                              Chairman
Subcommittee on Transportation,                       Subcommittee on Transportation,
Housing and Urban Development, and                    Housing and Urban Development, and
Related Agencies                                      Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

Dear Chairmen Rockefeller, Murray, Shuster, and Latham:

This report presents the results of our review of Amtrak’s 5-Year Financial Plan
for fiscal years 2013 through 2017 (Plan) and annual budget for fiscal year 2013
(Budget). The Passenger Rail Investment and Improvement Act of 2008 (PRIIA) 1
requires us to conduct this review. Overall, we found that Amtrak’s Plan addresses
most of the requirements outlined in PRIIA, but lacks some required information,
most notably regarding the company’s continued financial stability and several
other performance metrics intended to ensure the railroad is improving its
operating efficiency. Our previous assessments also found similar deficiencies in
prior Plans. Details of our analysis are included below.


1
 Pub. L. No. 110-432, Div. B (October 16, 2008). PRIIA authorizes funding for Amtrak through 2013,
and requires Amtrak to annually issue a 5-year financial plan. OIG reviews each plan to determine if it
meets requirements outlined in PRIIA Section 204(b).

CC-2013-029
                                                                                                 2


AMTRAK’S PLAN LACKS SOME PRIIA-REQUIRED
INFORMATION

Amtrak’s 2013 Plan lacks comprehensive information on the company’s
continuing financial stability and enhanced efficiency. Furthermore, unlike the
previous plan, this Plan omits several important PRIIA-required metrics—such as
debt service costs and equipment reliability statistics—that would demonstrate
improvements in the railroad’s operating efficiency. Table 1 summarizes the
current Plan’s compliance in comparison with Amtrak’s previous Plan.

Table 1. Fiscal Year 2012 and 2013 Plans’ Compliance with PRIIA
                                                                  Plan’s Compliance
 PRIIA Requirement                                              2013            2012
 Projected revenues, expenditures, cash flow, and               Partial         Full
 ridership
 Operational and capital funding requirements and               Full            Full
 expenditures and predicted funding sources
 Estimates of long- and short-term debt and associated          Not Compliant   Full
 principal and interest payments
 Projected capital and operating requirements, ridership,       Not Compliant   Not Applicable
 and revenue for any new passenger service operations
 or service expansions
 Capital and operating expenditures for anticipated             Partial         Full
 security needs
 Assessment of Amtrak’s continuing financial stability          Partial         Partial
 Prior fiscal year and projected operating ratio, cash          Partial         Partial
 operating loss, cash operating loss per passenger, and
 labor productivity statistics on a route, business line, and
 corporate basis
 Prior fiscal year and projected costs and savings              Not Compliant   Partial
 estimates resulting from reform initiatives
 Prior fiscal year and projected equipment reliability          Not Compliant   Full
 statistics
 Specific measures that demonstrate measurable                  Full            Full
 improvement year over year in the financial results of
 Amtrak’s operations
 A statement describing methods of estimation and               Not Compliant   Full
 significant assumptions
Source: OIG analysis




CC-2013-029
                                                                                   3


The Plan Lacks Information on Amtrak’s Financial Stability and
Operating Efficiency

PRIIA requires that the Plan include an assessment of Amtrak’s continued
financial stability, and that one of the factors to consider is the company’s ability
to efficiently recruit, retain, and manage its workforce. However, the Plan does not
contain an analysis of Amtrak’s human capital strategies. In addition, the Plan
lacks information on Amtrak’s labor productivity. Specifically, PRIIA mandates
that the Plan report “labor productivity statistics on a route, business line, and
corporate basis.” 2 The Plan reflects this information by route but does not show an
assessment of labor productivity by business line or for the company as a whole as
PRIIA requires.

The Plan also lacks required information on projected ridership and revenue, as
well as operating and capital expenditures associated with any new or expanded
passenger rail service. In fiscal year 2013, Amtrak expanded its Washington to
Richmond service to Norfolk, Virginia. While it provides current and projected
ridership, revenue, capital expenditure, and operating expense data for the entire
route, the Plan does not specify the amounts attributable exclusively to the new
Richmond to Norfolk extension as required by PRIIA. This data is essential to
Amtrak’s efforts to meet increasing passenger demand while being judicious in the
resources it deploys to pursue these opportunities.

In addition, the Plan lacks certain PRIIA-required information that was reported in
the previous Plan—most notably a comprehensive assessment of the company’s
debt service costs and equipment reliability statistics. The fiscal year 2012 through
2016 Financial Plan provided principle and interest payment projections for each
of the 5 years covered by that plan. The current Plan, however, does not contain a
projection of the company’s principle and interest payments for fiscal years 2013
through 2017. Rather, it focuses on the reduction in future debt service obligations
Amtrak will achieve if it is able to exercise the early buy-out options on its fleet
leases. The Plan’s omission of equipment reliability statistics is also significant.
Amtrak is implementing a new fleet planning approach that focuses on fleet needs
dictated by the particular market served. However, to effectively implement this
new fleet management strategy, Amtrak management will need accurate fleet
reliability data.




2
    Section 204(b)(14)

CC-2013-029
                                                                                                       4


The Plan Lacks a Statement of Estimates and Assumptions

The Plan provides a substantial amount of information on Amtrak’s current and
projected financial results, but does not contain the PRIIA-required statement
describing the methods Amtrak used to develop its financial and performance
estimates and projections. While the Plan identifies several risks to Amtrak’s
ongoing financial stability, it does not explain the extent to which these risks
might impact the projections included in the Plan. For example, even though the
Plan highlights the impending implementation of PRIIA’s Section 209 3 as a key
financial risk, it makes no adjustments in its revenue and expense projections to
reflect this risk. When PRIIA Section 209 goes into effect in October 2013, the
amounts States must compensate Amtrak for operating short-distance trains will
likely increase. Only two States, however, have so far committed to continuing
their services. Still, the Plan projects that Amtrak’s State-supported service
revenue, as a percentage of total Amtrak passenger revenue, will increase from
8 percent in fiscal year 2013 to 11 percent in fiscal year 2017—a significant
assumption that Amtrak should clarify in its methodology.

AMTRAK’S ANNUAL BUDGET ALIGNS WITH ITS FINANCIAL
PLAN

Amtrak’s annual Budget is in line with its Five-Year Financial Plan for fiscal year
2013. The Budget provides details on Amtrak’s ongoing efforts to improve its
financial performance and overall business results with initiatives that will reduce
the company’s reliance on Federal operating support. In the past, these initiatives
have included reductions in Amtrak’s non-union workforce and in professional
service fees incurred to retain consultants and external legal counsel. As a result,
Amtrak’s operating loss declined from $446 million to $362 million (19 percent)
between fiscal years 2011 and 2012. However, the company projects that the loss
will increase 15 percent—from $362 million to $415 million—in fiscal year 2013,
largely due to unexpected costs resulting from Superstorm Sandy. Amtrak
estimates the direct operating repair costs associated with the storm at
approximately $66 million, but the costs could increase over time.




3
  Section 209 of PRIIA directs the States and Amtrak to “develop and implement a single, nationwide
standardized methodology for establishing and allocating the operating and capital costs among the States
and Amtrak” related to trains that operate on corridors of 750 miles or less.

CC-2013-029
                                                                            5


We are transmitting copies of this letter to the Ranking Members of your
committees. If you have any questions, please contact me at (202) 366-1959, or
Mitchell Behm, Assistant Inspector General for Rail, Maritime, Pipelines, and
Hazmat Transport and Economic Analysis, at (202) 366-9970.

Sincerely,


Calvin L. Scovel III
Inspector General

cc:   Ranking Member Thune, Committee on Commerce, Science, and
      Transportation, United States Senate

      Ranking Member Rahall, Committee on Transportation and Infrastructure,
      United States House of Representatives

      Ranking Member Collins, Subcommittee on Transportation, Housing and
      Urban Development, and Related Agencies, Committee on Appropriations,
      United States Senate

      Ranking Member Pastor, Subcommittee on Transportation, Housing and
      Urban Development, and Related Agencies, Committee on Appropriations,
      United States House of Representatives




CC-2013-029
